OFFICE OF AUDIT
REGION 5
CHICAGO, IL




                  Saginaw Housing Commission,
                          Saginaw, MI

        Section 8 Housing Choice Voucher Program




2012-CH-1012                               SEPTEMBER 27, 2012
                                                        Issue Date: September 27, 2012

                                                        Audit Report Number: 2012-CH-1012




TO: Willie Garrett, Director of Public Housing, 5FPH


FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA


SUBJECT: The Saginaw Housing Commission, Saginaw, MI, Did Not Always Administer Its
         Section 8 Housing Choice Voucher program in Accordance With HUD’s and Its
         Own Requirements

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), discussion draft audit report of our audit of the Saginaw Housing
Commission’s Section 8 Housing Choice Voucher program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.




                                                  
                                            September 27, 2012
                                            The Saginaw Housing Commission, Saginaw, MI, Did Not
                                            Always Administer Its Program in Accordance With
                                            HUD’s and Its Own Requirements



Highlights
Audit Report 2012-CH-1012


 What We Audited and Why                     What We Found

We audited the Saginaw Housing              The Commission did not always administer its
Commission’s Section 8 Housing              program in accordance with HUD’s and its own
Choice Voucher program. The audit           requirements. It failed to ensure that program
was part of the activities in our fiscal    participants’ Family Self-Sufficiency escrow account
year 2012 annual audit plan. We             balances were calculated appropriately. Specifically, it
selected the Commission based upon          (1) underfunded participants’ graduation and port-out
our previous audits of its use of Federal   payments, (2) overpaid participants’ graduation and
funds and a request from HUD                interim payments, (3) underfunded participants’
management to perform a                     escrow account balances, (4) failed to recapture funds
comprehensive review of its programs.       in its system due to incorrect escrow account balances,
Our objective was to determine whether      and (5) failed to maintain required documentation in its
the Commission operated its program in      participants’ files. Further, the Commission failed to
accordance with HUD’s and its own           (1) appropriately use HUD’s Enterprise Income
requirements. This was the third audit      Verification system income discrepancy reports and
performed on the Commission.                (2) recover or reimburse its Section 8 Housing Choice
                                            Voucher program housing assistance and utility
 What We Recommend                          allowance payments for households with unreported or
                                            underreported income.
We recommend that the Director of           As a result of the Commission’s noncompliance, HUD
HUD’s Detroit Office of Public              and the Commission lacked assurance that more than
Housing require the Commission to (1)       $1 million in program funds was used appropriately.
reimburse its Family Self-Sufficiency
program nearly $22,000 for escrow
overpayments, (2) reimburse its
participants nearly $12,000 for the
underpayment of escrow funds, (3)
provide support or reimburse HUD
more than $812,000 from non-Federal
funds, (4) ensure that nearly $178,000
in program funds was used
appropriately, and (5) implement
adequate procedures and controls to
address the findings cited in this audit
report.



                                                   
                           TABLE OF CONTENTS
Background and Objective                                                                3

Results of Audit
      Finding 1: The Commission Failed To Operate Its Family Self-Sufficiency Program in
                 Accordance With HUD’s and Its Own Requirements                          4

      Finding 2: The Commission Did Not Effectively Use HUD’s Enterprise Income
                 Verification System Income Discrepancy Reports                        12

Scope and Methodology                                                                  15

Internal Controls                                                                      17

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                   19
   B. Federal Requirements and the Commission’s Program Administrative Plan            20




                                           2
                      BACKGROUND AND OBJECTIVE

The Saginaw Housing Commission was established in July 1947 by the City of Saginaw to
provide safe, decent, sanitary, and affordable housing and create opportunities for self-
sufficiency and economic independence to low- and moderate-income residents of Saginaw. The
Commission’s primary funding source is the U.S. Department of Housing and Urban
Development (HUD) under the regulation of the State of Michigan’s Act 18 of 1933, MCL
125.651-709e. The mayor of Saginaw appoints all housing commission board members to serve
a 5-year term, and the city council ratifies the appointments with a majority vote. Residents of
the Commission’s housing developments are eligible for appointment. The Commission’s board
is a five-member volunteer board. The Commission’s executive director is appointed by the
board of commissioners and is responsible for coordinating established policy and carrying out
the Commission’s day-to-day operations.

The Commission administers a Section 8 Housing Choice Voucher program funded by HUD. It
provides assistance to low- and moderate-income individuals seeking decent, safe, and sanitary
housing by subsidizing rents with owners of existing private housing. As of August 6, 2012, the
Commission had 1,379 units under contract with annual housing assistance payments totaling
more than $4.7 million in program funds.

The Family Self-Sufficiency program promotes the development of local strategies to coordinate
public and private resources that help Housing Choice Voucher program participants and public
housing tenants obtain employment that will enable participating families to achieve economic
independence. The Family Self-Sufficiency program is administered by public housing agencies
with the help of program coordinating committees. The program coordinating committees
usually consist of representatives of local government, employment and job training agencies,
welfare agencies, nonprofit providers, local businesses, and assisted families. Supportive
services most commonly provided to program participants are child care, transportation,
remedial education, and job training. The major components of the program are a contract of
participation between the public housing agency and the family, an individualized training and
services plan for each participating family member, and an interest-bearing escrow account.
Credits to a family’s escrow account are based on increased income earned by family members
during the term of their contract. On completion of the program contract, a family may claim its
escrow account if no family member is receiving welfare assistance.

Our objective was to determine whether the Commission operated its Section 8 Housing Choice
Voucher program in accordance with HUD’s and its own requirements, to include determining
whether the Commission (1) accurately computed Family Self-Sufficiency escrow credits for
program participants and maintained the appropriate eligibility documentation and (2)
appropriately recovered housing assistance and utility allowance payments for households with
income discrepancies.




                                               3
                                       RESULTS OF AUDIT

Finding 1: The Commission Failed To Operate Its Family Self-
Sufficiency Program in Accordance With HUD’s and Its Own
Requirements
The Commission failed to operate its Family Self-Sufficiency program in accordance with
HUD’s requirements and its own program action plan. Specifically, it did not (1) appropriately
calculate participants’ escrow balances, (2) ensure that its coordinators effectively managed the
program, and (3) ensure that participants’ files contained required documentation. Further, the
Commission failed to recapture nearly $123,000 in program funds that was inappropriately
maintained its system and failed to notify its finance department of more than $50,000 in
forfeitures entered into its system. It also did not ensure that its program bank account was
appropriately maintained. The noncompliance occurred because the Commission failed to
exercise proper supervision and oversight of its program and its staff did not fully understand the
program’s requirements. As a result, the Commission underpaid more than $11,500 and
overpaid nearly $22,000 in escrow payments to its program participants and underfunded
participants’ escrow balances by more than $24,300. It also disbursed more than $17,000 in
program funds to participants without proper support documentation and misused more than
$573,000 in coordinator funds.


    The Commission Did Not
    Appropriately Calculate
    Participants’ Escrow Balances

                   We attempted to review the Commission’s Family Self-Sufficiency program
                   participant information during our audit period, January 1, 2010, through
                   December 31, 2011. However, the Commission was unable to provide a list of
                   current program participants and their correct escrow balances.1 According to the
                   Commission, before July 2010, its finance department maintained a list of all
                   program participants and their escrow balances. The program coordinators did
                   not always provide the finance department with changes to participants’ escrow
                   deposits, interim payments, graduation payments, and escrow forfeitures in a
                   timely manner. Therefore, the list was not a good starting point for our review.

                   In July 2010, the Commission began entering program participants’ escrow
                   balances into its HMS system (system). However, it was unable to provide
                   documentation to support participants’ year-to-date escrow balances and how the
                   balances were derived. The Commission’s coordinators continued to maintain
                   separate information regarding the participants’ escrow balances, which did not
                   match that in the Commission’s system. The coordinators also inappropriately


1
    HUD’s Regulations at 24 CFR (Code of Federal Regulations) 984.305(a)(2)(i)

                                                         4
                                                          
                allocated a ½ percent rate to each participant’s monthly escrow balance, when the
                interest rate was variable.

                We recalculated the interest rates, based on information from the Commission’s
                bank, for each month between January 1, 2005, and December 31, 2011. Due to
                the large variances between our calculations and the Commission’s, we
                determined that we would need to completely recalculate each of the 174 program
                participant escrow calculations from the time the participants began participating
                in the program. Each of the 174 participants was listed in the Commission’s
                system as being active on the Commission’s program during our audit period,
                January 1, 2010, through December 31, 2011.

                The Commission did not appropriately calculate the program participants’ escrow
                accounts. Of the 174 reviews completed, 84 participants’ escrows were
                calculated incorrectly, 79 participants did not generate an escrow, and 11
                participants were removed from the program with no escrow balance remaining in
                the Commission’s system. Further in reviewing the documentation maintained in
                the 174 participant files, 60 contracts of participation had incorrect earned income
                and rent amounts, 98 contracts were not entered into within 120 days of the last
                certification,2 and 382 annual participants’ update reports were missing.3

                Also, the 174 files contained 1,010 certifications. We reviewed all 1,010 of the
                certifications and determined that (1) 307 had incorrectly calculated escrow
                account credit worksheets, (2) 153 had escrow account credit worksheets that
                were not created in a timely manner and had no corresponding certification,4 and
                (3) 382 were missing escrow account credit worksheets.

                The Commission underfunded participants’ graduation and port-out payments by
                $11,549, overpaid participants’ graduation and interim payments by $21,560,
                underfunded participants’ escrow accounts by $24,302, and failed to recapture
                $122,960 from its system for incorrect system balances. It allowed two
                participants to spend more than the amount that was in their escrow account. One
                participant had a negative escrow balance of $766 as of December 31, 2011. The
                remaining participant was removed from the program in September 2011 and had
                a negative escrow balance of $298. The Commission’s Section 8 director made a
                positive adjustment to the participant’s escrow account in the amount of $298 to
                remove the negative balance. However, the Commission was unable to provide
                documentation to support that the household repaid these funds. The funds are
                included in the inappropriate escrow calculations stated above.

                The Commission also failed to ensure that it maintained its program escrow bank
                account appropriately. Based on our escrow calculations, the Commission had
                underfunded its family self-sufficiency account by $3,164.

2
  Form HUD-52650, Program Contract of Participation
3
  HUD’s regulations at 24 CFR 984.305(a)(3)
4
  Form HUD-52652, Escrow Credit Worksheet

                                                      5
                                                       
            Its finance department maintained the bank balance and made deposits and
            withdrawals to the program bank account based on information provided by its
            Section 8 department. On January 17, 2012, the Section 8 director entered
            forfeitures totaling $50,376 for program households that had old escrow balances
            in the Commission’s system. The participants were removed from the program
            between September 2002 and November 2011. However, the Section 8 director
            did not provide this information to the Commission’s finance department so that it
            could move the escrow balances from the program bank account to the
            Commission’s Section 8 account.

The Commission’s
Coordinators Did Not
Effectively Oversee the
Program

            The Commission failed to maintain effective Family Self-Sufficiency program
            coordinators. The Commission employed seven coordinators at different times
            between 2005 and 2011. The coordinators did not effectively oversee the
            program. They failed to ensure that (1) participants’ contracts were entered into
            in a timely manner and contained appropriate information, (2) escrow credit
            worksheets were completed for each recertification, (3) participants’ escrows
            were calculated appropriately, (4) annual escrow credit reports were provided, (5)
            interest was allocated correctly, and (6) participants were not able to spend more
            than was available in their escrow credit accounts. The coordinators also did not
            appropriately calculate the Commission’s mandatory slots.

            The Commission received a 2-year waiver in 2003, reducing its mandatory
            program slots from 205 to 150. According to the coordinator’s calculations, the
            number of mandatory slots for 2012 was 79. Based on the information from the
            waiver and the Commission’s reported graduates, the number of slots for 2012
            was 120. HUD’s public housing revitalization specialist stated that the
            Commission’s calculation of mandatory slots was incorrect and the Commission
            had not consistently submitted documentation to HUD to confirm the number of
            program graduates so the number of required program slots could be reduced.

            HUD awarded the Commission grants totaling $600,448 under its Housing
            Choice Voucher-Family Self-Sufficiency Coordinator program from 2005
            through 2011. These funds were made available to pay the salaries and fringe
            benefits for the Commission’s coordinators under the stipulation that the
            Commission administer its Family Self-Sufficiency program in accordance with
            Federal requirements. The Commission used $573,170 of the funds from January
            2005 through December 2011. Given that the Commission and its coordinators
            failed to maintain an effective program, the Commission may have not properly
            used the $573,170 in coordinator funds. Therefore, HUD should determine


                                             6
                                              
           whether any of the grant funds used to pay the coordinator achieved the purpose
           of the program.

Participant Files Lacked
Required Documentation

           The Commission did not maintain documentation in its program participant files
           as required by HUD regulations and its program action plan.

           We statistically selected 58 program participant files from a universe of 174
           participants that were enrolled in the Commission’s program from 2004 to 2011.
           The 58 participant files were reviewed to determine whether the Commission
           maintained documentation to support participants’ admission to and continued
           participation in the program for participants listed as active in its system for the
           period January 1, 2010, through December 31, 2011. Our review was limited to
           the information maintained by the Commission in its program participant files.

           Of the 58 program participant files reviewed,

                  54 files did not contain the client information and family needs
                   assessments;
                  21 files did not contain the Commission’s agency referral form;
                  21 files did not contain the Commission’s authorization to release
                   confidential information for referrals to program services;
                  19 files did not contain the Commission’s program referral form for
                   program services;
                  17 files did not contain the Commission’s required correspondence
                   between coordinators and service agencies for referrals provided;
                  15 participants did not have HUD-required interim goals;
                  14 files did not contain the Commission’s individual action plans;
                  13 files did not contain the Commission’s program termination checklist;
                  13 files did not contain the Commission’s final escrow calculation
                   statement for the terminated participants;
                  13 files did not contain the termination letters with the Commission’s
                   required information;
                  10 individual training and services plan addendums were not signed by the
                   participant and the Commission;
                  7 contract extensions did not contain the new expiration date;
                  7 participants that had contract extensions or modifications did not have
                   individual training and services plan addendums;
                  6 participants had final goals that were contrary to HUD’s requirements;
                  6 individual training and services plans were not signed by the participant
                   and a representative of the Commission;
                  4 files did not contain individual training and services plans;


                                             7
                                               
                  4 files for program graduates did not contain documentation showing that
                   the graduate met the obligations outlined in his or her contract of
                   participation and individual training and services plan, the participant paid
                   30 percent of his or her monthly adjusted income for rent, and the
                   participants did not continue to receive welfare assistance;
                  3 files did not contain program applications;
                  3 contract extension requests did not state how the extension would allow
                   the participant to meet his or her goals;
                  1 file did not contain the form HUD-50058 family report showing that the
                   participant had exited the program;
                  1 individual training and services plan did not contain specific interim
                   goals and completion dates;
                  1 individual training and services plan did not include the final goal of
                   seeking and maintaining suitable employment; and
                  1 file did not contain the Commission’s program needs table.

           The Commission also did not maintain the documentation required by its action
           plans to support 19 of the 25 (76 percent) approved interim escrow disbursement
           requests for 9 participants. Therefore, it disbursed $17,008 to program
           participants without obtaining the required supporting documentation.

           The Commission updated its 2005 action plan in 2010. The original and updated
           action plans did not contain policies and procedures as required by HUD
           regulations. Specifically, the action plan did not contain policies and procedures
           required by HUD specifying the actions to be taken if a program participant
           family underreports income or assets or the Commission’s policies for denying
           participation in its program to families that owe money to the Commission.

The Commission Failed To
Exercise Proper Supervision
and Oversight of Its Program

           The noncompliance described above occurred because the Commission failed to
           exercise proper supervision and oversight of its program, and its staff did not fully
           understand the program’s requirements. As previously mentioned, according to
           the Commission, the program coordinators, Section 8 director, and finance
           department did not always maintain effective communication. Therefore,
           changes that occurred in one department were not always provided to the other
           departments in a timely manner.

           Further, the Commission’s Section 8 director said that the errors in the program
           participants’ escrow balances were due to staff turnover and a lack of
           understanding of the program. The Commission’s program coordinator said that
           annual escrow statements were provided only to program participants that had
           earned an escrow.

                                             8
                                               
             The Commission’s current executive director said that its program bank account,
             escrow credit worksheets, and escrow credit statements and the escrow balances
             in its system were incorrect. The Commission wanted to use its system to track
             its program participants’ escrow balances. Therefore, the executive director
             requested that we assist the Commission in determining what its program bank
             account balance should have been as of December 31, 2011, so that it could make
             the appropriate adjustments.

             The documents were missing from the participants’ files because the
             Commission’s staff lacked adequate program knowledge and controls to ensure
             that required documents were completed and maintained in the participants’ files
             in accordance with HUD’s and its own requirements. The Commission’s program
             coordinator said that the client information and family needs assessment was a
             new form that was added to the Commission’s program action plan when it was
             revised in 2010 and applicants did not like filling it out because the form was too
             long. The Commission’s Section 8 director said that the Commission did not
             maintain the assessment or individual action plan as stated in its action plan
             because it believed the information was in each program participants’ individual
             training and services plan.

             The Commission updated its 2005 action plan in 2010. The original and updated
             action plans did not contain policies and procedures as required by HUD
             regulations. The Commission did not follow its HUD-approved program action
             plan when maintaining its program participant files.

Conclusion

             The Commission failed to operate its Family Self-Sufficiency program in
             accordance with HUD’s requirements and its own program action plan. As a
             result, it underfunded participants’ graduation and port-out payments by $11,549,
             overpaid participant’s graduation and interim payments by $21,650, underfunded
             participants’ escrow balances by $24,303, failed to recapture $122,690 from its
             system for incorrect system balances, and failed to notify its finance department
             of more than $50,000 in forfeitures entered into its system.

             It also allowed two participants to have negative escrow balances totaling more
             than $1,000 when it failed to ensure that the participants had appropriate funds to
             cover interim escrow disbursements. It also failed to ensure that its program bank
             account was maintained appropriately by underfunding the account by more than
             $3,100. Further, the Commission did not properly use program funds when it
             failed to maintain the appropriate documentation in program participants’ files to
             comply with HUD’s and its own requirements. The Commission disbursed
             $17,008 in program funds for participants without proper documentation.



                                              9
                                                
          HUD awarded the Commission grants totaling more than $600,000 under its
          Housing Choice Voucher-Family Self-Sufficiency Coordinator program from
          2005 through 2011. The Commission used $573,170 of the funds from January
          2005 through December 2011. Because the Commission and its coordinators
          failed to maintain an effective program, the Commission may have not properly
          used the $573,170 in coordinator grant funds. If the Commission does not
          implement adequate procedures and controls regarding its Family Self-
          Sufficiency program, we estimate that it could inappropriately use $27,278 in
          grant funds over the next year (see the Scope and Methodology section of this
          report).

Recommendations

          We recommend that the Director of HUD’s Detroit Office of Public Housing
          require the Commission to

           1A. Reimburse its program $21,650 form non-Federal funds for the
               overpayment of escrow funds to the participants cited in this finding.

           1B. Transfer $11,549 from its Section 8 Housing Choice Voucher program
               account to its Family Self-Sufficiency program account and make the
               underfunded graduation and port-out payments cited in this finding.

           1C. Transfer $24,303 from its Section 8 Housing Choice Voucher program
               account to its Family Self-Sufficiency program account for the
               underfunded escrows cited in this finding.

           1D. Transfer $3,164 from its Section 8 Housing Choice Voucher program
               bank account and transfer the funds to its Family Self-Sufficiency escrow
               bank account for the underfunding of its Family Self-Sufficiency escrow
               bank account cited in this finding.

           1E. Recapture the $122,960 from its system and ensure that the funds are
               appropriately accounted for in its system and its Family Self-Sufficiency
               and Section 8 Housing Choice Voucher program bank accounts.

           1F. Ensure that the $50,376 in forfeitures entered by the Section 8 director is
               appropriately accounted for in its system and its Family Self-Sufficiency
               and Section 8 Housing Choice Voucher program bank accounts.

           1G. Develop and implement adequate procedures and controls regarding its
               Family Self-Sufficiency program to ensure that it follows Federal
               requirements and its HUD-approved action plan within the next 12 months
               to prevent $27,278 in program coordinator grant funds from being spent
               contrary to Federal requirements.


                                         10
                                            
 1H. Provide supporting documentation or reimburse its program $17,008 from
     non-Federal funds for the unsupported payments cited in this finding.

 1I.   Ensure that all of the required file documentation is complete, accurate,
       and maintained in its program participant files to support that the
       Commission is following its action plan and HUD’s regulations.

 1J.   Implement adequate procedures and controls to ensure that all required
       documentation is complete, accurate, and maintained in the participants’
       files to support his or her the eligibility to participate in the program.

We recommend that the Director of HUD’s Detroit Office of Public Housing

 1K. Determine the amount of the $573,170 of coordinator grant funds that
     were actually earned by the Commission for meeting the program’s
     requirements. The funds that are determined to be unearned should be
     reimbursed to HUD from non-Federal funds.




                                11
                                  
Finding 2: The Commission Did Not Effectively Use HUD’s Enterprise
Income Verification System Income Discrepancy Reports
The Commission did not effectively use HUD’s Enterprise Income Verification system income
discrepancy reports to recover or reimburse Section 8 Housing Choice Voucher program housing
assistance and utility allowance payments for households with unreported or underreported
income. This deficiency occurred because the Commission lacked adequate procedures and
controls to ensure that it appropriately followed HUD’s and its own requirements. As a result, it
overpaid nearly $129,000 in housing assistance and utility allowances and earned more than
$42,600 in administrative fees for the inappropriate overpayments.


 The Commission Failed To
 Resolve Income Discrepancies

              The Commission did not effectively use HUD’s system income discrepancy
              reports to recover or reimburse program housing assistance and utility allowance
              payments for households with unreported or underreported income.

              We reviewed 100 percent of the income discrepancy information for the 98
              households reported in HUD’s system having an income discrepancy. Our review
              was limited to information in HUD’s system and the information entered into
              HUD’s Public and Indian Housing Information Center database by the
              Commission.

              Of the 98 files reviewed, 69 (70 percent) had unreported or underreported income
              totaling $446,138. The Commission overpaid $128,868 in housing assistance and
              utility allowances to the 69 households that had unreported or underreported
              income. It received $42,632 in program administrative fees related to the 69
              households that were overpaid housing assistance and utility allowances during
              the period January 1, 2010, through December 31, 2011.

              The balance of 29 files (98 less 69) did not have reportable errors. According to
              HUD’s system, (1) 16 households had valid income discrepancies totaling
              $16,779 but did not meet the $2,400 income discrepancy threshold set by HUD,
              (2) 7 households were new admissions to the program and the income discrepancy
              was before the households’ participation in the program, (3) 5 households did not
              have a valid income discrepancy, and (4) 1 household did not receive housing
              assistance payments during the period from January 1, 2010, through December
              31, 2011.




                                               12
                                                 
The Commission’s Procedures
and Controls Had Weaknesses


             The overpayment of housing assistance occurred because the Commission did not
             ensure that its staff took appropriate steps to recover overpaid housing assistance
             when unreported or underreported income was determined during the examination
             process. Additionally, the Commission did not update its Section 8 Housing
             Choice Voucher program administrative plan to include HUD’s requirements for
             correcting income discrepancies. HUD’s public and Indian housing program
             advisor stated that public housing agencies are required to review and compare
             the income reports to the previous information reported in each individual
             household’s form HUD-50058 family report to determine whether an income
             discrepancy exists.

             The Commission’s Section 8 director stated that the Commission was late in
             performing annual reexaminations until October 1, 2010, when it came back into
             compliance with the recertification process. Further, the Commission did not
             believe that it was able to recapture overpaid housing assistance payments.

Conclusion

             The Commission did not effectively use HUD’s system income discrepancy
             report to recover or reimburse Section 8 Housing Choice Voucher program
             housing assistance and utility allowance payments for households with unreported
             or underreported income. As a result, it overpaid $128,868 in housing assistance
             and utility allowances related to the households with unreported or underreported
             income.

             Further, the Commission earned $42,632 in program administrative fees for the
             incorrectly calculated housing assistance and utility allowance payments. In
             accordance with HUD’s regulations at 24 CFR (Code of Federal Regulations)
             982.152(d), HUD may reduce or offset any administrative fee to the public
             housing authority, in the amount determined by HUD, if the public housing
             authority fails to perform its administrative responsibilities correctly or
             adequately under the program.

Recommendations

             We recommend that the Director of HUD’s Detroit Office of Public Housing
             require the Commission to

              2A. Take the appropriate actions to determine whether the income
                  discrepancies are valid and if so, pursue collection from the applicable
                  households or reimburse its program $171,500 ($128,868 in housing

                                             13
                                               
     assistance payments + $42,632 in administrative fees) from non-Federal
     funds for the overpayment of housing assistance cited in this finding.

2B. Update its program administrative plan to ensure that the administrative
    plan complies with HUD’s Enterprise Income Verification requirements.

2C. Implement adequate procedures and controls to ensure that appropriate
    actions are taken when income discrepancies exceeding HUD’s threshold
    are discovered during the examination process or during its review of the
    individual income reports.

2D. Develop and implement procedures and controls to ensure its program
    administrative plan is updated when new policies are established by HUD.
    The Commission should also implement adequate procedures and controls
    to ensure that it complies with HUD’s regulations and its updated program
    administrative plan.




                             14
                                
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

               Applicable laws; regulations; HUD’s program requirements at 24 CFR Parts 5,
                982, and 984; United States Code; Office of Management and Budget Circular A-
                133; HUD Guidebook 7420.10G; HUD Public and Indian Housing Notice 2010-
                19; HUD’s Voucher Management System; HUD’s Public and Indian Housing
                Information Center database; and HUD’s Enterprise Income Verification system.

               The Commission’s accounting records; bank statements; general ledgers; Family
                Self-Sufficiency program household files; policies and procedures; board meeting
                minutes pertinent to the program; organizational chart; and annual audited
                financial statements for 2009, 2010, and 2011.

               HUD’s files for the Commission and monitoring reviews of the Commission’s
                Section 8 Housing Choice Voucher program.

We also interviewed the Commission’s employees and HUD’s staff.

Finding 1

We reviewed 100 percent of the Commission’s Family Self-Sufficiency program participants
listed as active in its system from January 1, 2010, through December 1, 2011, to determine
whether the Commission appropriately calculated the participant’s escrow.

Using data mining software, we statistically selected 58 program participant files from a universe
of 174 participants on the Commission’s program from January 1, 2010, through December 31,
2011. The 58 files were reviewed to determine whether the Commission had maintained the
appropriate eligibility documentation for the period January 1, 2010, through December 31,
2011. Our sampling criteria used a 90 percent confidence level and precision of plus or minus 10
percent. Our review determined that the Commission did not maintain the appropriate eligibility
documentation in the participants’ files.

HUD awarded the Commission grants totaling $600,448 under its Housing Choice Voucher-
Family Self-Sufficiency Coordinator program from 2005 through 2011. The Commission used
$573,170 of the funds from January 2005 through December 2011. Because the Commission
and its coordinators failed to maintain an effective program, the Commission may have not
properly used the $573,170 in Coordinator Grant funds. If the Commission does not implement
adequate procedures and controls regarding its Family Self-Sufficiency program, we estimate
that it could inappropriately use $27,278 ($600,448 less $573,170) in grant funds over the next
year.

Finding 2


                                               15
                                                  
We obtained HUD’s Enterprise Income Verification system income discrepancy report for the
Commission. The report contained 98 Section 8 households that had an income discrepancy as
of January 21, 2012. We reviewed the income discrepancy information for the 98 household
files.

We relied in part on data maintained by the Commission in its systems. Although we did not
perform a detailed assessment of the reliability of the data, we performed a minimal level of
testing and found the data to be adequately reliable for our purposes (see findings 1 and 2 of this
audit report).

We performed our onsite audit work from February to April 2012 at the Commission’s office
located at 1803 Norman Street, Saginaw, MI. The audit covered the period January 1, 2010,
through December 31, 2011, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

We asked the Commission’s executive director to provide comments on our discussion draft
audit report by September 24, 2012. The Commission opted not to provide any written
comments.




                                                 16
                                                   
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 17
                                                   
Significant Deficiency

            Based on our review, we believe that the following item is a significant
            deficiency:

               The Commission lacked adequate procedures and controls to ensure compliance
                with HUD’s requirements and its program action plan regarding (1) program
                participants’ escrow calculations, (2) program participants’ file documentation,
                and (3) the use of HUD’s system for the recovery or repayment of overpaid and
                underpaid housing assistance and utility allowances (see findings 1 and 2).




                                             18
                                               
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation          Ineligible 1/   Unsupported 2/   Funds to be put
                 number                                             to better use 3/
                         1A           $21,650
                         1B            11,549
                         1C                                                $24,303
                         1D                                                  3,164
                         1E                                                122,960
                         1F                             $50,376
                         1G                                                 27,278
                         1H                              17,008
                         1K                             573,170
                         2A                             171,500
                       Total          $33,199          $812,054          $177,705

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.




                                             19
                                               
Appendix B

     FEDERAL REQUIREMENTS AND THE COMMISSION’S
           PROGRAM ADMINISTRATIVE PLAN

Finding 1
HUD’s regulations at 24 CFR 984.103 define an individual training and services plan as a
written plan that is prepared for the head of the family and each adult member of the family who
elects to participate in the program by the public housing agency in consultation with the family
member and which sets forth

 “(1) The supportive services to be provided to the family member;
 (2) The activities to be completed by that family member; and
 (3) The agreed upon completion dates for the services and activities. Each individual training
     and services plan must be signed by the public housing agency and the participating family
     member, and is attached to, and incorporated as part of the contract of participation. An
     individual training and services plan must be prepared for the head of the family.”

HUD’s regulations at 24 CFR 984.105(b)(2) state that the minimum size of a public housing
agency’s Section 8 Family Self-Sufficiency program is equal to the number of Section 8
certificate and voucher program units as calculated below:

 “(i) Units included.
   (A) The number of rental certificates and rental voucher units reserved under the combined
       FY [fiscal year] 1991/1992 Family Self-Sufficiency incentive award competition; plus
   (B) The number of additional rental certificates and rental voucher units reserved in FY 1993
       through October 20, 1998 (not including the renewal of funding for units previously
       reserved), minus such units that are excluded from minimum program size in accordance
       with paragraph (b)(2)(ii) of this section; minus
   (C) The number of families who have graduated from the public housing agency’s Section 8
       Family Self-Sufficiency program on or after October 21, 1998, by fulfilling their contract
       of participation obligations.”

HUD’s regulations at 24 CFR 984.105(b)(3) state that the minimum program size for a public
housing agency’s public housing or Section 8 Family Self-Sufficiency program is reduced by
one slot for each family that graduates from the Family Self-Sufficiency program by fulfilling its
Family Self-Sufficiency contract of participation on or after October 21, 1998. If a Family Self-
Sufficiency slot is vacated by a family that has not completed its Family Self-Sufficiency
contract of participation obligations, the slot must be filled by a replacement family, which has
been selected in accordance with the Family Self-Sufficiency family selection procedures set
forth in 24 CFR 984.203.

HUD’s regulations at 24 CFR 984.301(b) state that a public housing agency may employ
appropriate staff, including a service coordinator or program coordinator, to administer its

                                                20
                                                  
Family Self-Sufficiency program, and may contract with an appropriate organization to establish
and administer the Family Self-Sufficiency program, including the Family Self-Sufficiency
account, as provided by 24 CFR 984.305.

HUD’s regulations at 24 CFR 984.302(b) state that the administrative fees paid to public housing
agencies for HUD-approved costs associated with operation of a Family Self-Sufficiency
program are established by Congress and subject to appropriations.

HUD’s regulations at 24 CFR 984.303(b)(2) state that for each participating Family Self-
Sufficiency family that is a recipient of welfare assistance, the public housing agency must
establish as an interim goal that the family become independent from welfare assistance and
remain independent from welfare assistance at least 1 year before the expiration of the term of
the contract of participation, including any extension thereof.

HUD’s regulations at 24 CFR 984.303(b)(4)(i) state that the head of the family should be
required under the contract of participation to seek and maintain suitable employment during the
term of the contract and any extension thereof. Although other members of the family may seek
and maintain employment during the term of the contract, only the head of the family is required
to seek and maintain suitable employment.

HUD’s regulations at 24 CFR 984.303(h) state that the contract of participation is automatically
terminated if the family’s Section 8 assistance is terminated in accordance with HUD
requirements.

HUD’s regulations at 24 CFR 984.305(a)(1) state that the public housing agency must deposit
the Family Self-Sufficiency account funds of all families participating in the public housing
agency’s Family Self-Sufficiency program into a single depository account. The public housing
agency must deposit the Family Self-Sufficiency account funds into one or more of the HUD-
approved investments.

HUD’s regulations at 24 CFR 984.305(a)(2)(i) state that the total of the combined Family Self-
Sufficiency account funds will be supported in the public housing agency accounting records by
a subsidiary ledger showing the balance applicable to each Family Self-Sufficiency family.
During the term of the contract of participation, the public housing agency should credit
periodically but not less than annually to each family’s Family Self-Sufficiency account the
amount of the Family Self-Sufficiency credit determined in accordance with paragraph (b) of this
section.

HUD’s regulations at 24 CFR 984.305(a)(2)(ii) state that the investment income for funds in the
Family Self-Sufficiency account will be prorated and credited to each family’s Family Self-
Sufficiency account based on the balance in each family’s Family Self-Sufficiency account at the
end of the period for which the investment income is credited.

HUD’s regulations at 24 CFR 984.305(a)(3) state that each public housing agency will be
required to make a report, at least once annually, to each Family Self-Sufficiency family on the
status of the family’s Family Self-Sufficiency account. At a minimum, the report will include

                                               21
                                                  
 “(i) The balance at the beginning of the reporting period;
 (ii) The amount of the family's rent payment that was credited to the Family Self-Sufficiency
      account, during the reporting period;
 (iii) Any deductions made from the account for amounts due the public housing agency before
      interest is distributed;
 (iv) The amount of interest earned on the account during the year; and
 (v) The total in the account at the end of the reporting period.”

HUD’s regulations at 24 CFR 984.305(b)(1) state that for purposes of determining the Family
Self-Sufficiency credit, “family rent” for the rental voucher program is 30 percent of adjusted
monthly income. The Family Self-Sufficiency credit should be computed as follows:

 “(i) For Family Self-Sufficiency families who are very low-income families, the Family Self-
     Sufficiency credit should be the amount which is the lesser of:
   (A) Thirty percent of current monthly adjusted income less the family rent, which is obtained
        by disregarding any increases in earned income (as defined in 24 CFR 984.103) from the
        effective date of the contract of participation; or
   (B) The current family rent less the family rent at the time of the effective date of the contract
        of participation.
 (ii) For Family Self-Sufficiency families who are low-income families but not very low-
     income families, the Family Self-Sufficiency credit should be the amount determined
     according to paragraph (b)(1)(i) of this section, but which should not exceed the amount
     computed for 50 percent of median income.”

HUD’s regulations at 24 CFR 984.305(b)(2) state that Family Self-Sufficiency families who are
not low-income families should not be entitled to Family Self-Sufficiency credit.

HUD’s regulations at 24 CFR 984.305(b)(3) state that the public housing agency must not make
additional credits to the Family Self-Sufficiency family’s Family Self-Sufficiency account when
the Family Self-Sufficiency family has completed the contract of participation, as defined in 24
CFR 984.303(g), or when the contract of participation is terminated or otherwise nullified.

HUD’s regulations at 24 CFR 984.305(c)(2)(ii) state that if the public housing agency determines
that the family has fulfilled certain interim goals established in the contract of participation and
needs a portion of the program account funds for purposes consistent with the contract of
participation, such as completion of higher education (such as college, graduate school) or job
training or to meet startup expenses involved in creation of a small business, the public housing
agency may, at the public housing agency’s sole option, disburse a portion of the funds from the
family’s program account to assist the family in meeting those expenses.

HUD’s regulations at 24 CFR 984.305(f)(1) state that amounts in the Family Self-Sufficiency
account should be forfeited upon the occurrence of the following:

 “(i) The contract of participation is terminated, as provided in 24 CFR 984.303(e) or 24 CFR
    984.303(h); or

                                                22
                                                   
 (ii) The contract of participation is completed by the family, as provided in 24 CFR
     984.303(g), but the Family Self-Sufficiency family is receiving welfare assistance at the
     time of expiration of the term of the contract of participation, including any extension
     thereof.”

HUD’s regulations at 24 CFR 984.305(f)(2)(ii) state that the Family Self-Sufficiency account
funds forfeited by the family will be treated as program receipts for payment of program
expenses under the public housing agency budget for the applicable Section 8 program and
should be used in accordance with HUD requirements governing the use of program receipts.

Form HUD-52650, Program Contract of Participation, states that the income and rent numbers to
be inserted on page 1 may be taken from the amounts on the last reexamination or interim
determination before the family’s initial participation in the Family Self-Sufficiency program
unless more than 120 days will pass between the effective date of the reexamination and the
effective date of the contract of participation. If it has been more than 120 days, the public
housing agency must conduct a new reexamination or interim redetermination.

Form HUD-52650, Program Contract of Participation, states that the contract must include an
individual training and services plan for the head of the family.

Form HUD-52650, Program Contract of Participation, states that interim goals must be specified
along with the activities and services needed to achieve them.

Form HUD-52650, Program Contract of Participation, states that all completion dates included in
the individual training and services plans must be on or before the contract of participation
expires.

Form HUD-52650, Program Contract of Participation, states that the final goal listed on the
individual training and services plan of the head of the family must include getting and
maintaining suitable employment specific to that individual’s skills, education, job training, and
the available job opportunities in the area.

Form HUD-52650, Program Contract of Participation, states that if the housing agency decides
to extend the term of the contract, the original expiration date listed on page 1 of the contract
must be crossed out and the new expiration date added.

Form HUD-52650, Program Contract of Participation, states that any change(s) to an individual
training and services plan must be included as a revision to the individual training and services
plan (attachment) to which the change applies. The revision must include the item changed,
signatures of the participant and an housing agency representative, and the date signed.

Form HUD-52652, Escrow Account Credit Worksheet, states that escrow credits must be
determined at each reexamination and interim determination occurring after the effective date of
the Family Self-Sufficiency contract of participation while the family is participating in the
Family Self-Sufficiency program.



                                                23
                                                  
HUD’s Housing Choice Voucher Guidebook 7420.10G, section 23.3, states that the action plan
must also describe all program policies over which the public housing agency has discretion,
including at least

      Policies and procedures for selecting participants;
      Policies for terminating or withholding housing choice voucher program assistance,
       supportive services, or participation for failure to comply with the contract of
       participation;
      Actions to be taken if an family underreports income or assets;
      The hearing procedures for families;
      Policies for denying participation to families owing money to the public housing agency
       or to families previously terminated from the program; and
      A policy providing a selection preference for portable families if the public housing
       agency will give portable families preference for program participation.

Section V, part B 1, of the Commission’s 2005 action plan states that Section 8 recipients
wishing to participate in the program will complete a program application form (exhibit C),
which may be delivered or mailed to the coordinators at the Commission.

Section VI of the Commission’s 2005 and 2010 action plans state that a request to extend the
contract must be in writing and must include a description of how the extension will allow the
family to complete the goals of its individual training and services plan. The request must
demonstrate that “good cause” exists for granting the extension. If approved, the contract
extension must not exceed 2 years.

Section VIII, Termination Process, part h, of the Commission’s 2010 action plan states that if a
contact has not been reestablished with the participant within 150 days from the last documented
contact, coordinators will send a final termination letter. The letter will explain that the
participant is being terminated 30 days from the mailing date of the letter. If the participant has
funds in an escrow account, the letter will indicate the amount of funds to be forfeited.
Additionally, the letter will explain the participant’s right to appeal the termination through the
grievance process.

Section VIII, Termination Process, part I, of the Commission’s 2010 action plan states that if the
participant does not respond to the final termination letter within 30 days, the participant’s
program contract of participation will be terminated. The program termination checklist will be
employed to ensure that all relevant documents used by the coordinator, related to the terminated
participant, are modified to reflect the termination. The termination will be recorded in the
system on the program addendum as an “exit” update. A final form HUD-50058 and escrow
calculation sheet will be printed and stored, along with a copy of the program termination
checklist, in the terminated participant’s file.

Section IX, part A, of the Commission’s 2005 and 2010 action plan states that investment
income should be credited periodically but not less than annually to each participating family’s
program escrow account. The participant will be provided with an annual report on the status of


                                                24
                                                  
his or her escrow account, including current balance and interest income earned from the
preceding year.

Section IX, part B5, of the Commission’s 2005 action plan states that the participant may request
the withdrawal of a portion of his or her escrow account before the completion of his or her
contract of participation. The family must have funds available in its escrow account, and the
purpose of the withdrawal must directly aid the family in completing its contract of participation.

Section XI of the Commission’s 2005 and 2010 action plans state that all referrals completed by
coordinators will be documented on a program referral form and forwarded to the program
participant, along with instructions on how to make contact with the referral agency. Likewise,
the referral agency will receive an agency referral form and an authorization to release
confidential information form with appropriate participant information.

Section XIII, part B1, of the Commission’s 2005 and 2010 action plans state that the
coordinators’ responsibility to program reporting includes

 “1. Maintenance and retention of all records pertaining to the program. These records will
    include: Needs Assessment, Contract of Participation, Individual Training and Services
    Plan, progress notes, referral forms and correspondence with participants and service
    agencies.”

Finding 2
HUD’s regulations at 24 CFR 5.240(c) state that the authority must verify the accuracy of the
income information received from program households and change the amount of the total tenant
payment, tenant rent, or program housing assistance payment or terminate assistance, as
appropriate, based on such information.

HUD’s regulations at 24 CFR 5.236(b)(1) state that any determination or redetermination of
family income verified in accordance with this paragraph must be carried out in accordance with
the requirements and procedures applicable to the individual covered program. Independent
verification of information obtained from a State wage information collection agency or a
Federal agency may be “(i) by HUD; (ii) in the case of the public housing program, by a public
housing authority; or (iii) in the case of any Section 8 program, by a public housing agency
acting as contract administrator under an annual contributions contract.”

HUD’s regulations at 24 CFR 5.236(b)(2) state that upon receiving income information from a
State wage information collection agency or a Federal agency, HUD or when applicable, the
public housing authority should compare the information with the information about a family’s
income that was “(i) provided by the assistance applicant or participant to the public housing
agency.”

HUD’s regulations at 24 CFR 5.236(b)(3) state that when the income information reveals an
employer or other income source that was not disclosed by the assistance applicant or participant
or when the income information differs substantially from the information received from the
assistance applicant or participant or from his or her employer, “(i) HUD or, as applicable or

                                                25
                                                  
directed by HUD, the public housing authority should request the undisclosed employer or other
income source to furnish any information necessary to establish an assistance applicant’s or
participant’s eligibility for or level of assistance in a covered program. This information should
be furnished in writing, as directed to: (B) the responsible entity (as defined in 24 CFR part
5.100) in the case of the public housing program or any Section 8 program; or (ii) HUD or the
public housing authority may verify the income information directly with an assistance applicant
or participant. Such verification procedures should not include any disclosure of income
information prohibited under paragraph (b)(6) of this section.”

HUD’s regulations at 24 CFR 5.236(b)(4) state that HUD and the public housing authority
should not be required to pursue these verification procedures when the sums of money at issue
are too small to raise an inference of fraud or justify the expense of independent verification and
the procedures related to termination, denial, suspension, or reduction of assistance.

HUD’s regulations at 24 CFR 982.54(c) state that the authority must administer the program in
accordance with its administrative plan.

HUD’s regulations at 24 CFR 982.153 state that the authority must comply with the consolidated
annual contributions contract, the application, HUD regulations and other requirements, and its
program administrative plan.

HUD’s regulations at 24 CFR 982.516(f) state that the authority must establish procedures that
are appropriate and necessary to ensure that income data provided by applicant or participant
families are complete and accurate.

HUD’s regulations at 24 CFR 5.233(a)(1) state that the requirements of this section apply to
entities administering assistance under the “(ii) Section 8 Housing Choice Voucher (HCV)
program under 24 CFR part 982.”

HUD’s regulations at 24 CFR 5.233(a)(2) state that processing entities must use HUD’s
Enterprise Income Verification system in its entirety

  “(i) As a third party source to verify tenant employment and income information during
      mandatory reexaminations or recertifications of family composition and income, in
      accordance with §5.236, and administrative guidance issued by HUD; and
  (ii) To reduce administrative and subsidy payment errors in accordance with HUD
      administrative guidance.”

HUD’s regulations at 24 CFR 5.233(b) state that failure to use the system in its entirety may
result in the imposition of sanctions, the assessment of disallowed costs associated with any
resulting incorrect subsidy or tenant rent calculations, or both.

HUD’s regulations at 24 CFR 5.609(a)(2) state that annual income means all amounts, monetary
or not, which are anticipated to be received from a source outside the family during the 12-month
period following admission or annual reexamination effective date.



                                                26
                                                   
Public and Indian Housing Notice 2010-19, number 3, states that on December 29, 2009, HUD
issued the final rule entitled Refinement of Income and Rent Determination Requirements in
Public and Assisted Housing Programs: Implementation of the Enterprise Income Verification
System - Amendments, which requires public housing agencies to use the system in its entirety
to verify tenant employment and income information during mandatory reexaminations of family
composition and income and reduce administrative and subsidy payment errors in accordance
with 24 CFR 5.236 and administrative guidance issued by HUD.

Public and Indian Housing Notice 2010-19, number 6, states that all public housing agencies are
required to review the system income report of each family before or during mandatory annual
and interim reexaminations of family income and composition to reduce tenant underreporting of
income and improper subsidy payments. The system is classified as an upfront income
verification technique (or automated written third-party verification), which helps to identify
income sources and amounts that the tenant may not have disclosed. This upfront income
verification technique in many instances, will reduce the need to mail or fax third-party
verification request forms to an income source. The system also provides various reports to
assist public housing agencies with the following:

 “a. Identifying tenants whose reported personal identifiers do not match the Social Security
   Administration database;
   b. Identifying tenants who need to disclose a Social Security Number;
 c. Identifying tenants whose alternate identification number (Alt ID) needs to be replaced with
   a Social Security Number;
 d. Identifying tenants who may not have reported complete and accurate income information;
   e. Identifying tenants who have started a new job;
   f. Identifying tenants who may be receiving duplicate rental assistance;
 g. Identifying tenants who are deceased and possibly continuing to receive rental assistance;
 h. Identifying former tenants of Public and Indian Housing rental assistance programs who
   voluntarily or involuntarily left the program and have a reportable adverse status and/or owe
   money to a public housing agency or Section 8 landlord.”

Public and Indian Housing Notice 2010-19, number 8, states that public housing agencies should
begin with the highest level of verification techniques. Public housing agencies are required to
access the system and obtain an income report for each household. The public housing agency is
required to maintain the income report in the tenant file, along with the form HUD-50058 and
other supporting documentation to support income and rent determinations for all mandatory
annual reexaminations of family income and composition. If the income report does not contain
employment and income information for the family, the public housing agency should attempt
the next lower level verification technique.

Public and Indian Housing Notice 2010-19, number 10, states that public housing agencies can
comply with and reduce the administrative burden of third-party verification requirements for
employment, wage, unemployment compensation and Social Security benefits, and any other
information that is verifiable using the system by

“a. Reviewing the system Income Report to confirm/validate tenant-reported income; and

                                              27
                                                 
b. Printing and maintaining a system Income Report (or a system Individual Control Number
   (ICN) page for interim reexaminations as prescribed in Section 12 of this Notice) in the
   tenant file; and
c. Obtaining current acceptable tenant-provided documentation to supplement the system
   information; and
d. Using current tenant-provided documentation and/or third party verification to calculate
   annual income.”

Public and Indian Housing Notice 2010-19, number 11, states that the public housing agency
must request written third-party verification under the following circumstances:

“a. When the tenant disputes the system information and is unable to provide acceptable
  documentation to support his/her dispute (24 CFR §5.236(b));
b. When the public housing agency requires additional information that is not available in the
  system and/or the tenant is unable to provide the public housing agency with current
  acceptable tenant-provided documentation. Examples of additional information, includes but
  is not limited to:
  i. Effective dates of income (i.e. employment, unemployment compensation, or social security
     benefits)
  ii. For new employment: pay rate, number of hours worked per week, pay frequency, etc.
  iii. Confirmation of change in circumstances (i.e. reduced hours, reduced rate of pay,
     temporary leave of absence, etc.)”

Note: 24 CFR 5.236(a), prohibits public housing agencies from taking adverse action based
solely on system information.

Public and Indian Housing Notice 2010-19, number 12, states that the types of file
documentation required to demonstrate public housing agency compliance with mandated use
of the system as a third-party source to verify tenant employment and income information (24
CFR 5.233(a)(2)(i)) are as follows:

 “A. For each new admission (form HUD-50058 action type 1), the public housing agency is
  required to do the following:
     i. Review the system Income Report to confirm/validate family-reported income within 120
        days of the Public and Indian Housing Information Center submission date; and
     ii. Print and maintain a copy of the system Income Report in the tenant file; and
     iii. Resolve any income discrepancy with the family within 60 days of the system Income
        Report date.
 B. For each historical adjustment (form HUD-50058 action type 14), the public housing agency
  is required to do the following:
     i. Review the system Income Report to confirm/validate family-reported income within 120
        days of the Public and Indian Housing Information Center submission date; and
     ii. Print and maintain a copy of the system Income Report in the tenant file; and
     iii. Resolve any income discrepancy with the family within 60 days of the system Income
        Report date.



                                             28
                                                
 C. For each interim reexamination (form HUD-50058 action type 3) of family income and
  composition, the public housing agency is required to have the following documentation in
  the tenant file:
     i. Individual Control Number Page when there is no household income discrepancy noted
        on the household’s Income Discrepancy Report tab or Income Discrepancy Report.
        (Public housing agencies have the discretion to print the system Income report, however,
        only the Individual Control Number page is required.)
     ii. System Income Report when there is an income discrepancy noted on the household’s
        Income Discrepancy Report tab or Income Discrepancy Report.
 D. For each annual reexamination of family income and composition, the public housing
  agency is required to have the following documentation in the tenant file:
     i. No Dispute of system Information: system Income Report, current acceptable tenant-
        provided documentation, and if necessary (as determined by the public housing agency),
        traditional third party verification form(s).
     ii. Disputed System Information: System Income report, current acceptable tenant
        provided documentation, and/or traditional third party verification form(s) for disputed
        information. See example 2 below.
     iii. Tenant-reported income not verifiable through the system: Current tenant-provided
        documents, and if necessary (as determined by the public housing agency), traditional
        third party verification form(s).”

Public and Indian Housing Notice 2010-19, number 14, states that to ensure that public housing
agencies are aware of potential subsidy payment errors, they are required to monitor the
following system reports monthly:

   “1. Deceased Tenants Report
   2. Identity Verification Report
   3. Immigration Report.”

To ensure that public housing agencies are aware of potential subsidy payment errors, they are
required to monitor the following system reports quarterly:

   “1. Income Discrepancy Report
   2. Multiple Subsidy Report
   3. New Hires Report (if your agency has an interim increase policy).”

Public and Indian Housing Notice 2010-19, number 15, explains how to use the system income
report as a third-party source to verify tenant employment and income information. All system
income reports contain the date the report was generated and by whom and the date the system
received each type of information. To minimize tenant underreporting of income, public housing
agencies are required to obtain a system income report for each family any time the public
housing agency conducts an annual or interim reexamination of family income and composition.
In accordance with 24 CFR 5.236(b)(2)(3), public housing agencies are required to compare the
information on the system report with the family-reported information. If the system report
reveals an income source that was not reported by the tenant or a substantial difference in the
reported income information, the public housing agency is required to take the following actions:

                                               29
                                                 
   “1. Discuss the income discrepancy with the tenant; and
   2. Request the tenant to provide any documentation to confirm or dispute the unreported or
     underreported income and/ or income sources; and
   3. In the event the tenant is unable to provide acceptable documentation to resolve the
     income discrepancy, the public housing agency is required to request from the third party
     source, any information necessary to resolve the income discrepancy; and
   4. If applicable, determine the tenant’s underpayment of rent as a result of unreported or
     underreported income, retroactively*; and
   5. Take any other appropriate action as directed by HUD or the public housing agency’s
     administrative policies.

*The public housing agency is required to determine the retroactive rent as far back as the
existence of complete file documentation (form HUD-50058 and supporting documentation) to
support such retroactive rent determinations.”

Note: A substantial difference is defined as an amount equal to or greater than $2,400 annually.

Public and Indian Housing Notice 2010-19, number 16, states that tenants are required to
reimburse the public housing agency if they were charged less rent than required by HUD’s rent
formula due to the tenant’s underreporting or failure to report income. The tenant is required to
reimburse the public housing agency for the difference between the tenant rent that should have
been paid and the tenant rent that was charged. This rent underpayment is commonly referred to
as retroactive rent. If the tenant refuses to enter into a repayment agreement or fails to make
payments on an existing or new repayment agreement, the public housing agency must terminate
the family’s tenancy or assistance or both. HUD does not authorize public housing agency-
sponsored amnesty or debt forgiveness programs. All repayment agreements must be in writing,
dated, and signed by both the tenant and the public housing agency and include the total
retroactive rent amount owed, amount of lump sum payment made at time of execution if
applicable, and the monthly repayment amount. At a minimum, repayment agreements must
contain the following provisions:

“a. Reference to the paragraphs in the Public Housing lease or Section 8 information packet
  whereby the tenant is in non-compliance and may be subject to termination of tenancy or
  assistance, or both.
b. The monthly retroactive rent repayment amount is in addition to the family’s regular rent
  contribution and is payable to the public housing agency.
c. The terms of the agreement may be renegotiated if there is a decrease or increase in the
  family’s income.
d. Late and missed payments constitute default of the repayment agreement and may result in
  termination of tenancy and/or assistance.”

Public housing agencies are required to determine retroactive rent amount as far back as the
public housing agency has documentation of family reported income. For example, if the public
housing agency determines that the family has not reported income for a period of 5 years and
has documentation for only the last 3 years, the public housing agency is able determine only

                                               30
                                                 
retroactive rent for the 3 years for which documentation is available. The monthly retroactive
rent payment plus the amount of rent the tenant pays at the time the repayment agreement is
executed should be affordable and not exceed 40 percent of the family’s monthly adjusted
income. However, public housing agencies have the discretion to establish thresholds and
policies for repayment agreements in addition to HUD-required procedures.

Public and Indian Housing Notice 2010-19, number 17, states that the public housing agency’s
record retention policy will determine the length of time the public housing agency should
maintain system printouts in a tenant file. Public housing agencies are authorized to maintain the
system income report in the tenant file for the duration of the tenancy and no longer than 3 years
from the end of participation date. In accordance with revised regulations, 24 CFR 908.101,
public housing agencies are required to maintain, at a minimum, the last 3 years of the form
HUD-50058 and supporting documentation for all annual and interim reexaminations of family
income. All records are to be maintained for a period of at least 3 years from the effective date
of the action.

Public and Indian Housing Notice 2010-19, number 23, states that public housing agencies are
required to immediately implement all new and modified regulatory requirements of the
Refinement of Income and Rent Determination Requirements in Public and Assisted Housing
Programs: Implementation of the Enterprise Income Verification System - Amendments. HUD
recognizes that many public housing agencies have already begun to modify existing policies
and procedures to reflect use of the system during all mandatory annual and interim
reexaminations. Public housing agencies should immediately update their policies and
procedures to reflect these new regulatory provisions.

Office of Management and Budget Circular A-133 states that under budgetary guidance and
Public Law No. 107-300, Federal agencies are required to review Federal awards and, as
applicable, provide an estimate of improper payments. This includes any payment that should
not have been made or that was made in an incorrect amount under statutory, contractual,
administrative, or other legally applicable requirements and includes any payment to an
ineligible recipient and any payments for an ineligible service, duplicate payments, payments for
services not received, and any payment that does not account for credit for applicable discounts.




                                               31
                                                  
